UNITED STATES GOVERNMENT
National Labor Relations Board
Office of Inspector General




          Audit of the NLRB
 Fiscal Year 2011 Financial Statements

                  Report No. OIG-F-16-12-01




                                              December 2011
INSPECTOR GENERAL




                NATIONAL LABOR RELATIONS BOARD

                       WASHINGTON, DC 20570

December 14, 2011

I hereby submit the Audit of the National Labor Relations Board's (NLRB) Fiscal
Year (FY) 2011 Financial Statements, Report No. OIG-F-16-12-01.

The Accountability of Tax Dollars Act of 2002 requires that the NLRB prepare
and submit to the Congress and the Director of the Office of Management and
Budget (OMB) an audited financial statement.

The Office of Inspector General contracted with Carmichael, Brasher, Tuvell &
Company (CBTC) to perform the audit. The objectives of the audit were to
issue an opinion on the fair presentation of the principal financial statements,
obtain an understanding of the Agency's internal controls, and test compliance
with laws and regulations that could have a direct and material effect on the
financial statements. The audit was conducted by CBTC in accordance with
Government Auditing Standards issued by the Comptroller General of the
United States and OMB Bulletin No. 07-04, Audit Requirements for Federal
Financial Statements.

This document is the Office of Inspector General's comprehensive report related
to auditing the Agency's financial statements and includes CBTC’s independent
auditors’ report and management letter; NLRB's financial statements and
related notes; and the Agency's response to the management letter.

CBTC is responsible for the independent auditors’ report and the conclusions
expressed in the report. We reviewed CBTC's report and related documentation
and inquired of its representatives. Our review, as differentiated from an audit
in accordance with generally accepted government auditing standards, was not
intended to enable us to express, and we do not express, opinions on the
NLRB's financial statements or internal control or conclusions on compliance
with laws and regulations. Our review disclosed no instances in which CBTC
did not comply, in all material respects, with generally accepted government
auditing standards.
On November 7, 2011, we transmitted CBTC’s independent auditors’ report,
which was included in the Agency's FY 2011 Performance and Accountability
Report. The audit results were:

   The financial statements present fairly, in all material respects, the financial
    condition and activity of the NLRB as of and for the years ending September
    30, 2010 and 2011.

   The tests on internal controls identified no material weaknesses in controls
    over financial reporting. CBTC’s opinion did not provide any assurances on
    the effectiveness of internal control over financial reporting. Providing
    assurances on internal control or on the effectiveness of NLRB’s internal
    control over financial reporting was not an objective of the audit.

   The following instances of noncompliance with laws and regulations were
    identified:

       o The Agency did not adhere to the recording statute or the bona fide
         needs rule when the Agency obligated $113,120 without a binding
         agreement for information technology advisory services using FY 2011
         funds for services that were not received until FY 2012.

       o The Agency accepted and paid for telecommunication services after
         the period of performance expired without exercising the option for
         the next period of performance.

    No other instances of noncompliance with laws and regulations that would
    be reportable under U. S. generally accepted government auditing standards
    or OMB audit guidance were found. Providing an opinion on compliance
    with laws and regulations, however, was not an objective of the audit and,
    accordingly, such an opinion was not expressed.

CBTC’s independent auditors’ report did not include any recommendations for
corrective action. CBTC’s management letter contains recommendations to
address the two current year instances of noncompliance with laws and
regulations. The management letter also provided information on the status of
prior year recommendations.

In their comments to the management letter, the Chairman and Acting General
Counsel stated that they agree with the findings and recommendations and
they identified actions that have been taken, as well as those that remain to be
completed, on the current and prior year recommendations. The comments are
presented in their entirety as an appendix to this report.




                                         2
                                     TABLE OF CONTENTS

Independent Auditors’ Report ................................................................ 1

Management Letter ............................................................................... 5

NLRB Financial Statements.................................................................. 14

Notes to Principal Statements.............................................................. 18

APPENDIX

    Memorandum from the Chairman and Acting General Counsel in
    response to the Draft Management Letter
C E R T I F I E D    P U B L I C     A C C O U N T A N T S



INDEPENDENT AUDITORS’ REPORT


To David P. Berry, Inspector General
National Labor Relations Board

The Accountability of Tax Dollars Act of 2002 made the National Labor Relations Board
(NLRB) subject to the annual financial statement reporting requirements of the Chief Financial
Officers Act of 1990, which requires agencies to report annually to Congress on their financial
status and any other information needed to fairly present the agencies’ financial position and
results of operations.

The objectives of the audit are to express an opinion on the fair presentation of NLRB’s principal
financial statements, obtain an understanding of the Agency’s internal control, and test
compliance with laws and regulations that could have a direct and material effect on the financial
statements.

We have audited the balance sheets of NLRB as of September 30, 2011 and 2010, and the related
consolidated statements of net cost, changes in net position, and budgetary resources for the
years then ended.

NLRB’s management is responsible for preparing the financial statements in conformity with
accounting principles generally accepted in the United States of America; establishing,
maintaining, and assessing internal controls over financial reporting; preparing the
Management’s Discussion and Analysis (MD&A); and complying with laws and regulations.

Our responsibility is to express an opinion on the Fiscal Year (FY) 2011 and 2010 financial
statements of NLRB based on our audit. We conducted our audit in accordance with auditing
standards generally accepted in the United States of America; the standards applicable to
financial audits contained in Government Auditing Standards, issued by the Comptroller General
of the United States; and Office of Management and Budget (OMB) Bulletin No. 07-04, Audit
Requirements for Federal Financial Statements. These standards require that we plan and
perform the audit to obtain reasonable assurance about whether the financial statements are free
of material misstatements. An audit includes examining, on a test basis, evidence supporting the
amounts and disclosures in the financial statements. An audit also includes assessing the
accounting principles used and significant estimates made by management, as well as evaluating
the overall financial statement presentation. We believe that our audit provides a reasonable
basis for our opinion.




                                                1
OPINION ON FINANCIAL STATEMENTS

In our opinion, the financial statements referred to above present fairly, in all material respects,
the assets, liabilities, and net position of NLRB, as of September 30, 2011 and 2010; and the net
cost, changes in net position, and budgetary resources for the years then ended in conformity
with accounting principles generally accepted in the United States of America.

REPORT ON INTERNAL CONTROL

In planning and performing our audit, we considered NLRB’s internal control over financial
reporting as a basis for designing our auditing procedures for the purpose of expressing our
opinion on the financial statements. We limited our internal control testing to those controls
necessary to achieve the objectives described in OMB Bulletin No. 07-04. We did not test all
internal controls relevant to operating objectives as broadly defined by the Federal Managers’
Financial Integrity Act of 1982, such as those controls relevant to ensuring efficient operations.
The objective of our audit was not to provide assurance on internal control or on the
effectiveness of NLRB’s internal control over financial reporting. Because of inherent
limitations in internal control, misstatements due to error or fraud, losses, or noncompliance may
nevertheless occur and not be detected. Consequently, we do not provide an opinion on the
effectiveness of NLRB’s internal control over financial reporting.

A deficiency in internal control exists when the design or operation of a control does not allow
management or employees, in the normal course of performing their assigned functions, to
prevent, or detect and correct misstatements on a timely basis. A material weakness is a
deficiency, or a combination of deficiencies, in internal control such that there is a reasonable
possibility that a material misstatement of the organization’s financial statements will not be
prevented, or detected and corrected on a timely basis. A significant deficiency is a deficiency,
or a combination of deficiencies, in internal control that is less severe than a material weakness,
yet important enough to merit attention by those charged with governance.

Our consideration of internal control over financial reporting was for the limited purpose
described in the first paragraph of this section and was not designed to identify all deficiencies in
internal control over financial reporting that might be deficiencies, significant deficiencies, or
material weaknesses. We did not identify any deficiencies in internal control over financial
reporting that we consider to be material weaknesses, as defined above. In our previous year’s
audit, we identified a significant deficiency which has not yet been remediated by management
and those charged with governance. This significant deficiency was previously communicated to
management and those charged with governance on November 9, 2010 in our Report on Internal
Control for the fiscal year ending September 30, 2010.

We also identified other matters in internal control that came to our attention during our audit
that we communicated in writing to the management of NLRB and those charged with
governance.

We considered NLRB’s internal control over Required Supplementary Information (RSI) by
obtaining an understanding of the Agency’s internal control, determining whether these internal
controls had been placed in operation, assessing control risk, and performing tests of controls as



                                                 2
required by OMB Bulletin No. 07-04. The objective of our audit was not to provide assurance
on these internal controls. Accordingly, we do not provide an opinion on such controls.

REPORT ON COMPLIANCE WITH LAWS AND REGULATIONS

As part of obtaining reasonable assurance about whether the Agency’s financial statements are
free of material misstatement, we performed tests of its compliance with certain provisions of
laws and regulations, noncompliance with which could have a direct and material effect on the
determination of financial statement amounts, and certain other laws and regulations specified in
OMB Bulletin No. 07-04. We limited our tests of compliance to these provisions and we did not
test compliance with all laws and regulations applicable to NLRB. We caution that
noncompliance may occur and not be detected by these tests and that such testing may not be
sufficient for other purposes.

Our tests of compliance with certain provisions of laws and regulations discussed in the
preceding paragraph disclosed the following instances of noncompliance for the current fiscal
year as follows:

       NLRB did not adhere to the recording statute or the bona fide needs rule when, on
       September 30, 2011, the NLRB obligated $113,120 without a binding agreement for
       information technology advisory services using FY 2011 funds for services that were not
       received until FY 2012.

       NLRB accepted and paid for telecommunication services after the period of
       performance expired without exercising the option for the next period of
       performance.

Furthermore, two instances of noncompliance in regard to the Antideficiency Act, U.S. Code,
Title 31 Section 1351.1517(b), were reported in our previous fiscal year’s audit. These potential
Antideficiency Act violations were communicated to management and those charged with
governance on November 9, 2010 in our Report on Compliance with Laws and Regulations for
the fiscal year ending September 30, 2010. NLRB sent draft letters for each Antideficiency Act
violation to OMB for review and comment.

Except as noted above, our tests of compliance with selected provisions of laws and regulations
disclosed no other instances of noncompliance that would be reportable under U. S. generally
accepted government auditing standards or OMB audit guidance.

Providing an opinion on compliance with laws and regulations was not an objective of our audit
and, accordingly, we do not express such an opinion.




                                               3
OTHER ACCOMPANYING INFORMATION

Our audit was conducted for the purpose of forming an opinion on the financial statements of
NLRB taken as a whole. The accompanying financial information is not a required part of the
financial statements.

The other accompanying information included in the MD&A and RSI sections of the
Performance and Accountability Report are required by the Federal Accounting Standards
Advisory Board and OMB Circular A-136, Financial Reporting Requirements. We have applied
limited procedures, which consisted principally of inquiries of management regarding the
methods of measurement and presentation of the information. We did not audit the other
accompanying information and, accordingly, do not express an opinion or any other form of
assurance on it.

This communication is intended solely for the information and use of those charged with
governance and management of NLRB, others within the organization, OMB, and the Congress
of the United States, and is not intended to be and should not be used by anyone other than these
specified parties.

CARMICHAEL, BRASHER, TUVELL & COMPANY, PC




Atlanta, Georgia
November 7, 2011




                                               4
MANAGEMENT LETTER

To David P. Berry, Inspector General
National Labor Relations Board

We audited the financial statements (balance sheet, and the related statements of net cost,
changes in net position, and statement of budgetary resources, hereinafter referred to as
“financial statements”) of the National Labor Relations Board (NLRB) as of and for the years
ended September 30, 2011 and 2010, on which we issued an unqualified opinion dated
November 7, 2011.

In planning and performing our audit, we considered NLRB’s internal control over financial
reporting by obtaining an understanding of the design effectiveness of its internal controls,
determined whether internal controls had been placed in operation, assessed control risk, and
performed tests of controls as a basis for designing our auditing procedures for the purpose of
expressing our opinion on the financial statements. We limited our internal control testing to
those controls necessary to achieve the objectives described in the Office of Management and
Budget's (OMB) Bulletin No. 07-04, Audit Requirements for Federal Financial Statements, but
not for the purpose of expressing an opinion on the effectiveness of NLRB’s internal control.
We have not considered the internal control structure since the date of our report.

A deficiency in internal control exists when the design or operation of a control does not allow
management or employees, in the normal course of performing their assigned functions, to
prevent, or detect and correct misstatements on a timely basis. A significant deficiency is a
deficiency, or a combination of deficiencies, in internal control that is less severe than a material
weakness, yet important enough to merit attention by those charged with governance.

As noted in our previous year’s Report on Internal Control, we identified a significant deficiency
which has not yet been remediated by management and those charged with governance. This
significant deficiency was previously communicated to management and those charged with
governance on November 9, 2010 in our Report on Internal Control for the fiscal year ending
September 30, 2010.

During our audit, we also noted certain matters involving the internal control structure and other
operational matters that are presented in this letter for your consideration. These issues and
related recommendations have been discussed with the appropriate members of NLRB’s
management and are intended to improve the internal control structure or result in operating
efficiencies. NLRB’s written responses to these matters identified in our audit have not been
subjected to the auditing procedures applied in the audit of the financial statements and,
accordingly, we express no opinion on them.

We reviewed all eight (8) open recommendations made in the prior years’ management letters
(five from 2010, one from 2009, one from 2007, and one from 2006) and determined the status
of corrective actions for each. Two (2) recommendations were completed, four (4)
recommendations are partially completed, and two (2) recommendations were closed without
implementation. NLRB’s written responses to the prior years’ management letter comments

                                                 5
have not been subjected to the auditing procedures applied in the audit of the financial statements
and, accordingly, we express no opinion on them.

The report is intended for the information and use of those charged with governance and
management of NLRB, the Office of Inspector General, others within the organization, OMB,
and the U.S. Congress, and is not intended to be and should not be used by anyone other than
those specified parties.

CARMICHAEL BRASHER TUVELL & COMPANY




Atlanta, Georgia
November 7, 2011




                                                6
MANAGEMENT LETTER COMMENTS


#1 – Information Technology Advisory Services

Condition
NLRB issued a task order for information technology advisory services. The NLRB contracting
officer signed the order on September 30, 2011 and marked Box 28 on Standard Form 1449,
Solicitation/Contract/Order for Commercial Items (SF 1449). Box 28 states:

       Contractor is requested to sign this document and return 1 copy to issuing office.
       Contractor agrees to furnish and deliver all items set forth or otherwise identified
       above and on any additional sheets subject to the terms and condition specified
       herein.

The vendor signed the task order on October 7, 2011. The NLRB began to receive services
under the contract when the Office of the Chief Information Officer (OCIO) staff held a kick off
meeting with the vendor on October 25, 2011.

The request from the OCIO to the Acquisitions Management Branch (AMB) that services be
procured was received by AMB on September 23, 2011, after normal business hours. The next
business day was September 26, 2011. The proposal from the vendor was received by AMB on
September 29, 2011. An amended proposal was received on September 30, 2011.

Cause
The procurement function is not operating with sufficient internal controls in that the NLRB’s
requisition requests are not being processed to AMB in a timely manner to ensure that the
acquisition process can be completed prior to the end of the period of availability of the
appropriation.

AMB did not perform an adequate procedural and/or legal review prior to executing the task
order for information technology advisory services.

Effect
NLRB was not able to complete the acquisition process prior to the end of the period of
availability of the Fiscal Year (FY) 2011 appropriation.

NLRB violated the bona fide needs rule when it obligated FY 2011 funds for information
technology advisory services that were not received until FY 2012.

NLRB violated 31 U.S.C. § 1501 when it recorded an obligation before there was a binding
agreement for information technology advisory services.

Criteria
A Federal acquisition system will satisfy the needs of its agency in terms of cost, quality, and
timeliness of the delivered product or service. 48 CFR 1.102(b)(1).

An agency may only obligate a fiscal year appropriation to meet a legitimate, or bona fide, need
arising in the fiscal year for which the appropriation was made. 64 Comp.Gen. 359, 362 (1985).
Generally, when an agency enters into a contract in one fiscal year for services that will not be
performed until the succeeding fiscal year, the agency may not charge the first fiscal year's

                                                7
MANAGEMENT LETTER COMMENTS (continued)

appropriation with the cost of the contract. See, B-321296 Jul 13, 2011; B-235086, Apr. 24,
1991.

31 U.S.C § 1501(1), the recording statute, states that an obligation can only be recorded when
supported by documentary evidence of “a binding agreement between an agency and another
person that is (a) in writing, in a way and form, and for a purpose authorized by law; and
executed before the end of the period of availability for obligation of the appropriation or fund
used for specific . . . service to be provided . . ..”

Recommendation
We recommend that the Agency implement the prior recommendations that address the
significant deficiency in internal controls.

Agency Response
NLRB’s Chairman and Acting General Counsel concurred with the finding and stated that AMB
modified the task order to de-obligate the FY 2011 funding and re-obligate with FY 2012
funding. With regard to the finding of a significant deficiency in internal control and the
associated FY 2010 recommendation, they stated that the finding has been partially addressed in
that a protocol was implemented requiring legal counsel to review contracts, which also acts as a
quality review system; and that there is a system in place to ensure that contracting officers
receive appropriate training at regular intervals. It was also noted that the Agency commenced a
review of fundamental restructuring of the Agency as a whole, which includes a comprehensive
review of the Agency's financial management structure.
 
CBTC’S Assessment of Agency Response
CBTC reviewed documentation that verifies that the FY 2011 funding was de-obligated and the
task order is now funded with FY 2012 funding. Furthermore, CBTC will follow up on
Management’s Response and corrective actions during our FY 2012 audit process.




                                               8
MANAGEMENT LETTER COMMENTS (continued)


#2 - Telecommunications

Condition
The NLRB accepted and paid for telecommunication services after the period of performance
expired without exercising the option for the next period of performance because the option for
the second period of performance was not exercised timely in accordance with the FAR’s option
clauses that were included in the purchase order.

The following is a chronology of events:
   1. February 20, 2009 – NLRB executed a purchase order with a vendor for
       telecommunication services. This purchase order included a base period from February
       20, 2009 to February 19, 2010 with two (2) one year options.
   2. January 2, 2010 – an NLRB Contracting Officer provided the vendor with a preliminary
      notice of NLRB’s intent to exercise the first option year.
   3. February 21, 2010 – OCIO submitted a request to the AMB to exercise the option, two
      days after the period of performance for the base year expired.
   4. February 22, 2010 – AMB received OCIO’s request.
   5. February 23, 2010 – AMB signed a modification to exercise the option to extend the
      period of performance for 1 year 4 days after the original period of performance expired.
      The modification was backdated to February 20, 2010. AMB also notified the vendor via
      e-mail that the option was being exercised through February 19, 2011.
   6. February 20, 2011 – NLRB continued to accept services from the telecommunications
      vendor without any procurement action in place.
   7. May 25, 2011 – OCIO notified AMB that the first option period expired and that no
      action had been taken to exercise the option for the next period of performance.

Cause
AMB did not have controls in place to properly identify when periods of performance are due to
expire. The OCIO’s Program Management Office did not have a system in place to track
expiration dates and renewals of option dates of periods of performances. OCIO did not timely
submit a request to exercise the first option to extend the period of performance.

Effect
NLRB’s controls over procurement actions that have an option to extend the period of
performance were not operating effectively which caused unauthorized expenditures to be made.

Because the option was not exercised by the NLRB within the time period specified in the option
clauses, extending the option exercise date in February 2010 via a bilateral modification, even at
no change in the price, schedule and other terms and conditions of the option, was outside the
scope of the initial procurement action. Therefore, the attempt by AMB to execute the expired
option in February 2010 constituted a new procurement action that was completed using other
than full and open competition. Because that procurement action was improper, the purported
remaining option was not available to be executed by the NLRB in February 2011.




                                                9
MANAGEMENT LETTER COMMENTS (continued)


Criteria
 NLRB’s procurement action with the vendor included the following clauses:
   1. 52.217-8, for the Option to Extend Services, states that “the Contracting Officer may
       exercise the option by written notice to the Contractor within thirty (30) days prior to the
       contract expiration.”
   2. 52-217-9, for the Option to Extend the Term of the Contract, states that “the Government
       may extend the term of this contract by written notice to the Contractor within thirty (30)
       days prior to the contract expiration; provided that the Government gives the Contractor a
       preliminary written notice of its intent to extend at least days [60 days unless a different
       number of days is inserted] before the contract expires. The preliminary notice does not
       commit the Government to an extension.”

   Where a contract for services has expired, the contractual relationship which existed is
    terminated and the issuance of an amendment 4 months after the expiration date to
    retroactively extend and modify the contract as if it had not expired amounts to a contract
    award without competition, contrary to the requirements of the Competition in Contracting
    Act. 65 Comp. Gen 25 (1985)

Recommendation
We recommend that the NLRB:
   1) Utilize a tracking calendar system for all contracts;
   2) Consider implementing procurement software;
   3) Manage contracts in order to assure timely issuance of preliminary notifications;
   4) Compare the status of Request to Purchase, Form 12’s to the contract;
   5) Issue the contract modification prior to the expiration date of the original contract;
   6) Assure that option year evaluations are documented in the contract file; and
   7) Ratify the procurement action as deemed necessary by Special Counsel.

Agency Response
NLRB’s Chairman and Acting General Counsel concurred with the finding. The following is
Management’s Response to our recommendations:
   1) AMB is in the process of implementing a calendar system that shows dates for option
      expirations and contract performance end dates. This is considered to be a backup
      system, with the expectation that program offices will implement their own systems to
      track contracts for services they require;
   2) NLRB has been exploring the purchase of a procurement module as an adjunct to the
      agency’s accounting system for well over a year now. The procurement of any such a
      module is dependent upon both funding and the module containing the most important
      functionality needed by AMB;
   3) NLRB will continue to issue timely preliminary notifications;
   4) The Requests for Purchase are verified with every solicitation to ensure the ensuing
      contract fills the need or requirement of the program office;
   5) AMB stated it will continue to issue options prior to the expiration of task and delivery
      orders with options;
   6) AMB stated it will assure the option year evaluations are documented and placed in files;
      and
   7) AMB is taking the appropriate steps, including exploring ratification with Special
      Counsel and issuing appropriate task orders to cover subsequent services.

                                                10
MANAGEMENT LETTER COMMENTS (continued)


CBTC’S Assessment of Agency Response
CBTC will follow up on Management’s response and corrective actions during our FY 2012
audit process.




                                         11
MANAGEMENT LETTER COMMENTS (continued)


#3 - Prior Year Recommendations

Open Prior Year Management Letter Recommendations
Eight (8) prior year management letter recommendations were open during FY 2011. As shown
in the table below, two (2) recommendations were completed, four (4) recommendations are
partially completed, and two (2) recommendations were closed without implementation.

             Prior Year Recommendation                              Current Year Status
FY 2010 Management Letter
Significant Deficiency                                      Significant Deficiency
We recommended that the Agency establish a system of        Partially complete.
internal controls to ensure that laws and regulations
relating to procurement are properly applied. These
controls may include but are not limited to:
1. Establishment of a Chief Financial Officer outside of
    the Division of Administration that reports to those
    charged with governance;
2. Utilization of legal counsel to review non-GSA
    schedule contracts and contracts over specified
    monetary amount prior to award to determine
    compliance with the Federal Acquisition Regulation
    (FAR);
3. Creation of a formalized system of training
    contracting officers; and
4. Initiation of a quality control review system prior to
    issuing contracts that would include peer review.
Training                                                    Training
We recommended that the Agency deobligate $39,000           Complete. The Agency deobligated
of FY 2010 funds used for the training and obligate that    the FY 2010 funds after the
amount, in addition to the remaining $97,500 that has       Comptroller General decision.
not been recorded, using FY 2011 funds.
OEEO Food Purchase                                          OEEO Food Purchase
We recommend that the Antideficiency Act violations         Partially complete.
that occurred in FY 2006 through FY 2010 be reported
in accordance with the statutory requirements and OMB
guidance.
Court Reporting Services                                    Court Reporting Services
We recommend that the Agency deobligate the funds for       Closed without implementation after
the court reporting contracts, except for the seven uses    the Comptroller General decision
that occurred in FY 2010 and record obligations for FY
2011 requirements against the FY 2011 funds as they
occur.
Personal Service Contract                                   Personal Service Contract
We recommend that the Agency:                               Partially complete.
1. Terminate the contract with the contractor; and
2. Report the Antideficiency Act violation in
    accordance with the statutory requirements and
    OMB guidance.

                                               12
MANAGEMENT LETTER COMMENTS (continued)


              Prior Year Recommendation                          Current Year Status
FY 2009 Management Letter
Deobligate $250,000 of postage advanced from FY 2009 Closed. Management decided not to
funds and re-obligate the postage advance using FY      implement this recommendation. On
2010 funds.                                             August 25, 2011, this recommendation
                                                        was closed as unimplemented.
FY 2007 Management Letter
Ensure that IT personnel with security-related duties   Complete
receive the training required by NLRB’s ITSEAT
policy. If sufficient funding is not available, free IT
training should be pursued.
FY 2006 Management Letter
Implement the recommendations summarized in INDR        Partially complete.
No. 5-2006. These related to information technology
(IT) security vulnerabilities.




                                            13
                Principal Financial Statements

                                  National Labor Relations Board
                                           Balance Sheet
                                        As of September 30, 2011 and 2010
                                                   ( in dollars )
                                                                                  FY 2011          FY 2010
 Assets:
    Intragovernmental:
       Fund balance with Treasury (Note 2)                                  $ 26,485,035)     $ 36,676,482)
       Advances (Note 4)                                                            77,635)           23,336)
 Total Intragovernmental                                                        26,562,670)       36,699,818)


    Accounts receivable, net (Note 5)                                               53,951)           92,784)
    General property, plant and equipment, net (Note 6 and 10)                  12,703,848)       12,349,329)
 Total Assets                                                               $ 39,320,469)     $ 49,141,931)


 Liabilities:
    Intragovernmental:
       Accounts payable (Note 7)                                            $    3,690,963)   $    1,927,377)
       Employer contributions and payroll taxes                                   822,930)         2,155,315)
       FECA liability (Note 8 and 10)                                             582,946)          641,628)
       Other                                                                        83,867)         140,060)
 Total Intragovernmental                                                         5,180,706)        4,864,380)


    Accounts payable (Note 7):                                                   9,207,859)       10,522,138)
    Estimated future FECA liability (Note 8 and 10)                              1,278,528)        1,746,665)
    Accrued payroll and beneﬁts                                                  3,269,476)        8,960,673)
    Accrued annual leave (Note 8 and 10)                                        15,145,566)       15,064,659)
 Total Liabilities                                                          $ 34,082,135)     $ 41,158,515)


 Net position:
    Unexpended appropriations                                               $    9,487,574)   $ 12,994,255)
    Cumulative results of operations (Note 10)                                  (4,249,240)       (5,010,839)
 Total Net Position                                                         $    5,238,334)   $    7,983,416)
 Total Liabilities and Net Position                                         $ 39,320,469)     $ 49,141,931)



The accompanying footnotes are an integral part of these ﬁnancial statements



                                                      14
                                National Labor Relations Board
                                      Statement of Net Cost
                               For the Periods Ended September 30, 2011 and 2010
                                                   ( in dollars )
                                                                          FY 2011            FY 2010
 Program Costs:


 Resolve Representation Cases
 Net Cost                                                           $    49,822,208    $    48,476,133



 Resolve Unfair Labor Practices
 Net Cost                                                           $ 254,192,871      $ 247,582,839



 Other:
    Costs                                                                   17,814             59,371
    Less: Earned Revenue                                                    17,814             59,371
 Net Cost                                                                          –                 –



 Total:
    Costs                                                               304,032,893        296,118,343
    Less: Earned Revenue                                                    17,814             59,371
 Net Cost of Operations (Note 11)                                   $ 304,015,079      $ 296,058,972




The accompanying footnotes are an integral part of these ﬁnancial statements



                                                     15
                                  National Labor Relations Board
                                 Statement of Changes In Net Position
                                 For the Periods Ended September 30, 2011 and 2010
                                                     ( in dollars )
                                                                          FY 2011             FY 2010


  Cumulative Results of Operations:
    Beginning Balance                                              $     (5,010,839)   $     (7,771,755)


  Budgetary Financing Sources:
    Appropriations-used                                                285,269,455)        279,343,472)


  Other Financing Sources (Non-Exchange):
    Imputed ﬁnancing costs (Note 13)                                    19,509,446)         19,476,416)
    Loss on Disposal of Assets                                               (2,223)
  Total Financing Sources                                          $ 304,776,678)      $ 298,819,888)


    Net Cost of Operations                                             (304,015,079)       (296,058,972)


  Net Change                                                       $       761,599)    $     2,760,916)


  Cumulative Results of Operations (Note 10)                       $     (4,249,240)   $     (5,010,839)


  Unexpended Appropriations:
     Beginning Balance                                             $ 12,994,255)       $ 10,691,205)


  Budgetary Financing Sources:
     Appropriations-received                                           283,400,000)        283,400,000)
     Appropriations-used                                               (285,269,455)       (279,343,472)
     Recissions & cancelled appropriations                               (1,637,226)         (1,753,478)
  Total Budgetary Financing Sources                                $     3,506,681)    $     2,303,050)


  Total Unexpended Appropriations                                  $     9,487,574)    $ 12,994,255)


  Net Position                                                     $     5,238,334)    $     7,983,416)




The accompanying footnotes are an integral part of these ﬁnancial statements


                                                      16
                                  National Labor Relations Board
                                  Statement of Budgetary Resources
                                  For the Periods Ended September 30, 2011 and 2010
                                                      (in dollars)
                                                                           FY 2011           FY 2010

Budgetary Resources:
   Unobligated balance, brought forward, October 1:                  $     4,475,599)   $     4,171,569)
   Recoveries of prior year unpaid obligations                             1,798,665)          973,430)
   Budget authority:
       Appropriations (Note 14)                                          283,400,000)       283,400,000)
       Spending authority from offsetting collections:
       Earned
          Collected                                                         411,043)           211,226)
       Subtotal                                                          283,811,043)       283,611,226)
   Permanently not available (Note 14)                                    (1,637,226)        (1,753,478)
Total Budgetary Resources (Note 15)                                  $ 288,448,081)     $ 287,002,747)


Status of Budgetary Resources:
   Obligations incurred:
     Direct                                                          $ 284,134,967)     $ 282,467,777)
     Reimbursable                                                             17,814)            59,371)
     Subtotal (Note 15)                                              $ 284,152,781)     $ 282,527,148)
   Unobligated balance:
     Apportioned (Note 15)                                                  619,446)          1,403,931)
     Unobligated balance not available                                     3,675,854)         3,071,668)
Total Status of Budgetary Resources                                  $ 288,448,081)     $ 287,002,747)


Change in Obligated Balance:
   Unpaid Obligations, brought forward, October 1:                   $ 32,060,824)      $ 22,972,285)
   Obligations incurred, net                                             284,152,781)       282,527,148)
   Gross Outlays                                                      (292,309,072)      (272,465,179)
   Obligated balance transferred, net
                                                                          (1,798,665)          (973,430)
   Recoveries of prior year unpaid obligations, actual
Obligated balance, net, end of period:                               $ 22,105,868)      $ 32,060,824)


Net Outlays:
   Gross outlays                                                         292,309,072)       272,465,179)
   Offsetting collections                                                   (411,043)          (211,226)
Net Outlays                                                          $ 291,898,029)     $ 272,253,953)


The accompanying footnotes are an integral part of these ﬁnancial statements


                                                         17
            Notes To Principal Statements


NOTE 1.                                                       prepared from the books and records of the NLRB
SUMMARY OF SIGNIFICANT                                        in accordance with accounting principles generally
                                                              accepted in the United States of America (GAAP),
ACCOUNTING POLICIES                                           and the form and content requirements of the Ofﬁce
                                                              of Management and Budget (OMB) Circular No.
A. Reporting Entity                                           A-136, Financial Reporting Requirements, revised
The National Labor Relations Board (NLRB) is an               as of September 29, 2010. GAAP for federal
independent federal agency established in 1935                entities are the standards prescribed by the Federal
to administer the National Labor Relations Act                Accounting Standards Advisory Board (FASAB),
(NLRA). The NLRA is the principal labor relations             which is the ofﬁcial standard-setting body for the
law of the United States, and its provisions generally        federal government. While the statements have been
apply to private sector enterprises engaged in, or to         prepared from the books and records of the NLRB
activities affecting, interstate commerce. The NLRB’s         in accordance with GAAP for federal entities and
jurisdiction includes the U.S. Postal Service (other          the formats prescribed by OMB, the statements are
government entities, railroads, and airlines are not          in addition to the ﬁnancial reports used to monitor
within the NLRB’s jurisdiction). The NLRB seeks to            and control budgetary resources which are prepared
serve the public interest by reducing interruptions           from the same books and records. These ﬁnancial
in commerce caused by industrial strife. The                  statements present proprietary and budgetary
NLRB does this by providing orderly processes for             information.
protecting and implementing the respective rights of
employees, employers, and unions in their relations           The Balance Sheet presents agency assets and
with one another. The NLRB has two principal                  liabilities, and the difference between the two, which
functions: (1) to determine and implement, through            is the agency net position. Agency assets include
secret ballot elections, free democratic choice by            both entity assets — those which are available for
employees as to whether they wish to be represented           use by the agency — and non-entity assets — those
by a union in dealing with their employers and, if            which are managed by the agency but not available
so, by which union; and (2) to prevent and remedy             for use in its operations. Agency liabilities include both
unlawful acts, called unfair labor practices (ULP),           those covered by budgetary resources (funded) and
by either employers, unions, or both. The NLRB’s              those not covered by budgetary resources (unfunded).
authority is divided both by law and delegation. The          Effective for period beginning after September 30,
ﬁve-member Board (Board) primarily acts as a quasi-           2008, the investments made for backpay funds will
judicial body in deciding cases on formal records.            not be recognized on the balance sheet of any federal
The General Counsel investigates and prosecutes               entity. A note disclosure is still required to provide
ULP charges before administrative law judges,                 information about its ﬁduciary activities. See Note 1F,
whose decisions may be appealed to the Board;                 Fiduciary Activities, for additional information.
and, on behalf of the Board, conducts secret ballot
elections to determine whether employees wish to be           The Statement of Net Cost presents the gross costs
represented by a union.                                       of programs less earned revenue to arrive at the net
                                                              cost of operations for both programs and for the
B. Basis of Accounting and Presentation                       Agency as a whole.
These ﬁnancial statements have been prepared to
report the ﬁnancial position, net cost, changes in            The Statement of Changes in Net Position reports
net position, and budgetary resources of the NLRB             beginning balances, budgetary and other ﬁnancing
as required by the Accountability of Tax Dollars              sources, and net cost of operations, to arrive at
Act of 2002. These ﬁnancial statements have been              ending balances.



                                                         18
The Statement of Budgetary Resources provides                   The accounting structure of federal agencies is
information about how budgetary resources were                  designed to reﬂect both accrual and budgetary
made available as well as their status at the end of the        accounting transactions. Under the accrual method of
period. Recognition and measurement of budgetary                accounting, revenues are recognized when earned, and
information reported on this statement is based on              expenses are recognized when a liability is incurred,
budget terminology, deﬁnitions, and guidance in                 without regard to receipt or payment of cash.
OMB Circular No. A-11, Preparation, Submission, and
Execution of the Budget, dated August 2011.                     The budgetary accounting principles, on the other
                                                                hand, are designed to recognize the obligation of
The Agency is required to be in substantial                     funds according to legal requirements, which in many
compliance with all applicable accounting principles            cases is prior to the occurrence of an accrual based
and standards established, issued, and implemented              transaction. The recognition of budgetary accounting
by the FASAB, which is recognized by the American               transactions is essential for compliance with legal
Institute of Certiﬁed Public Accountants (AICPA)                constraints and controls over the use of federal funds.
as the entity to establish GAAP for the federal
government. The Federal Financial Management                    The information as presented on the Statement of Net
Integrity Act (FFMIA) of 1996 requires the Agency               Cost is based on the programs below:
to comply substantially with (1) federal ﬁnancial
management systems requirements, (2) applicable                 Representation Cases are initiated by the ﬁling of a
federal accounting standards, and (3) the U.S.                  petition by an employee, a group of employees, an
Government Standard General Ledger at the                       individual or labor organization acting on their behalf,
transaction level.                                              or in some cases by an employer. The petitioner
                                                                requests an election to determine whether a union
The FY 2013 Budget of the United States (also known             represents, or in some cases continues to represent,
as the President’s Budget) with actual numbers for              a majority of the employees in an appropriate
FY 2011 was not published at the time that these                bargaining unit and therefore should be certiﬁed as
ﬁnancial statements were issued. The President’s                the employees’ bargaining representative. The role
Budget is expected to be published in February                  of the Agency is to investigate the petition and, if
2012 and will be available from the United States               necessary, conduct a hearing to determine whether
Government Printing Ofﬁce. There are no differences             the employees constitute an appropriate bargaining
in the actual amounts for FY 2010 that have been                unit under the NLRA. The NLRB must also determine
reported in the FY 2012 Budget of the United States             which employees are properly included in the
and the actual numbers that appear in the FY 2010               bargaining unit, conduct the election if an election
Statement of Budgetary Resources.                               is determined to be warranted, hear and decide any
                                                                post-election objections to the conduct of the election
OMB ﬁnancial statement reporting guidelines for FY              and, if the election is determined to have been fairly
2011 require the presentation of comparative ﬁnancial           conducted, to certify its results.
statements for all of the principal ﬁnancial statements.
The NLRB is presenting comparative FY 2011                      ULP Cases are initiated by individuals or
ﬁnancial statements for the Balance Sheet, Statement            organizations through the ﬁling of a charge with
of Net Cost, Statement of Changes in Net Position,              the NLRB. If the NLRB Regional Ofﬁce believes
and Statement of Budgetary Resources, and these                 that a charge has merit, it issues and prosecutes
statements have been prepared in accordance with                a complaint against the charged party, unless
generally accepted accounting principles.                       settlement is reached. A complaint that is not settled
                                                                or withdrawn is tried before an administrative law
The ﬁnancial statements should be read with the                 judge (ALJ), who issues a decision, which may be
realization that they are for a component of the                appealed by any party to the Board. The Board acts
United States Government, a sovereign entity.                   in such matters as a quasi-judicial body, deciding
One implication of this is that liabilities cannot be           cases on the basis of the formal trial record according
liquidated without legislation that provides resources          to the law and the body of case law that has been
and legal authority to do so.                                   developed by the Board and the federal courts.



                                                           19
C. Budgets and Budgetary Accounting                            for allowable expenditures. In addition, funds held
Congress annually adopts a budget appropriation                with the Treasury also include escrow funds that
that provides the NLRB with authority to use funds             are not appropriated but are backpay funds that are
from the U.S. Treasury (Treasury) to meet operating            the standard Board remedy whenever a violation
expense requirements. The NLRB has single year                 of the NLRA has resulted in a loss of employment
budgetary authority and all unobligated amounts at             or earnings. Effective for the period beginning after
year-end are expired. At the end of the ﬁfth year, all         September 30, 2008, the cash received and the
amounts not expended are canceled. All revenue                 investments made for backpay funds will not be
received from other sources must be returned to                recognized on the balance sheet of any federal
the Treasury.                                                  entity. A note disclosure is still required to provide
                                                               information about its ﬁduciary activities. See Note 1F,
Budgetary accounting measures appropriation and                Fiduciary Activities, for further explanation.
consumption of budget/spending authority or other
budgetary resources and facilitates compliance                 See Note 2 for additional information on Fund Balance
with legal constraints and controls over the use of            with Treasury.
federal funds. Under budgetary reporting principles,
budgetary resources are consumed at the time                   F. Fiduciary Activities
of purchase. Assets and liabilities, which do not              Fiduciary activities are the collection or receipt,
consume current budgetary resources, are not                   and the management, protection, accounting,
reported, and only those liabilities for which valid           and investment, and disposition by the Federal
obligations have been established are considered to            Government of cash or other assets in which non-
consume budgetary resources.                                   Federal individuals or entities have an ownership
                                                               interest that the Federal Government must uphold.
Transactions are recorded on an accrual accounting             Fiduciary cash and other assets are not assets of
basis. Under the accrual method, revenues                      the Federal Government. Beginning in FY 2009,
are recognized when earned and expenses are                    ﬁduciary activities will no longer be recognized on the
recognized when a liability is incurred, without regard        proprietary ﬁnancial statements, but they are required
to receipt or payment of cash.                                 to be reported on schedules in the notes to the
                                                               ﬁnancial statements. (See SFFAS No. 31, Accounting
D. Financing Sources                                           for Fiduciary Activities).
The NLRB receives funds to support its programs
through annual appropriations. These funds may be              The ﬁduciary funds collected by NLRB and held in
used to pay program and administrative expenses                escrow accounts with the Treasury are funds that
(primarily salaries and beneﬁts, occupancy, travel, and        are not appropriated but are backpay funds that are
contractual service costs).                                    the standard Board remedy whenever a violation
                                                               of the NLRA has resulted in a loss of employment
For accounting purposes, appropriations are recognized         or earnings. The NLRB invests funds in federal
as ﬁnancing sources (appropriations used) at the time          government securities for backpay that are held in
expenses are accrued. Appropriations expended for              the escrow account at Treasury. Effective for the
general property, plant and equipment are recognized           period beginning after September 30, 2008, the cash
as expenses when the asset is consumed in operations           received and the investments made for backpay funds
(depreciation and amortization).                               will not be recognized on the balance sheet of any
                                                               federal entity. A note disclosure is still required to
E. Fund Balance with the Treasury                              provide information about its ﬁduciary activities. See
The NLRB does not maintain cash in commercial                  Note 3, Fiduciary Activities.
bank accounts. Cash receipts and disbursements are
processed by the Treasury. The agency’s records are            The federal government securities include Treasury
reconciled with those of Treasury. The fund balances           market-based securities issued by the Federal
with the Treasury are primarily appropriated funds that        Investment Branch of the Bureau of the Public Debt.
are available to pay current liabilities and to ﬁnance         Market-based securities are Treasury securities that are
authorized purchases. Funds with the Treasury                  not traded on any securities exchange, but mirror the
represent the NLRB’s right to draw on the Treasury             prices of marketable securities with similar terms.


                                                          20
It is expected that Investments will be held until                useful life for this category is ﬁve to twelve years.
maturity; therefore they are valued at cost and adjusted          There are no restrictions on the use or convertibility of
for amortization of discounts, if applicable. The                 general property, plant and equipment.
discounts are recognized as adjustments to interest
income, utilizing the straight-line method of amortization        Internal Use Software. Internal use software (IUS)
for short-term securities (i.e., bills). Investments,             includes purchased commercial off-the-shelf software
redemptions, and reinvestments are controlled and                 (COTS), contractor-developed software, and software
processed by the Department of the Treasury.                      that was internally developed by Agency employees.
                                                                  IUS is capitalized at cost if the acquisition cost is
There exists a signed Memorandum of Understanding                 $100,000 or more. For COTS software, the capitalized
(MOU) between the NLRB and the Treasury                           costs include the amount paid to the vendor for the
establishing the policies and procedures that the                 software; for contractor-developed software it includes
NLRB and the Treasury agree to follow for investing               the amount paid to a contractor to design, program,
monies in, and redeeming investments held by, the                 install, and implement the software. Capitalized costs
deposit fund account in Treasury.                                 for internally developed software include the full cost
                                                                  (direct and indirect) incurred during the software
See Note 3 for additional information on Fiduciary                development stage. The estimated useful life is two to
Activities.                                                       ﬁve years for calculating amortization of software using
                                                                  the straight-line method.
G. Advances
Advances consist of amounts advanced by the NLRB                  Internal Use Software in Development. Internal use
for the transit subsidy program, United States Postal             software in development is software that is being
Service for penalty mail and for commercial payment               developed, but not yet put into production. At the
systems for postage.                                              time the software is moved into production the costs
                                                                  will be moved into the IUS account described above.
See Note 4 for additional information on the                      The NLRB is currently undertaking a major software
Advances.                                                         development project called the Next Generation Case
                                                                  Management System (NXGen) that will replace a
H. Accounts Receivable, Net of Allowance for                      number of case tracking systems with one enterprise-
Doubtful Accounts                                                 wide system. NXGen will support the President’s
Accounts Receivable primarily consists of health                  Management Agenda, such as for e-Gov, E-Filing,
beneﬁt premiums due the NLRB from Agency                          e-FOIA, and public Web-based access to NLRB data.
employees. Accounts receivable are stated net of                  This project has been a multiple year undertaking in
allowance for doubtful accounts. The allowance is                 which a large portion of the system was rolled out in
estimated based on an aging of account balances,                  FY 2011. The overall cost of this project is expected
past collection experience, and an analysis of                    to exceed $14 million.
outstanding accounts at year end.
                                                                  See Note 6 for additional information on General
See Note 5 for additional information on Accounts                 Property, Plant and Equipment, Net.
Receivable.
                                                                  J. Non-Entity Assets
I. General Property, Plant and Equipment                          Assets held by the NLRB that are not available to the
General property, plant and equipment consist                     NLRB for obligation are considered non-entity assets.
primarily of telephone systems, computer hardware
and software. The Agency has no real property.                    See Note 9 for additional information on Non-Entity
                                                                  Assets.
General property, plant and equipment with a cost
of $15,000 or more per unit is capitalized at cost and            K. Liabilities
depreciated using the straight-line method over the               Liabilities represent the amount of monies or other
useful life. Other property items are expensed when               resources that are likely to be paid by the NLRB as
purchased. Expenditures for repairs and maintenance               the result of a transaction or event that has already
are charged to operating expenses as incurred. The                occurred. However, no liability can be paid by


                                                             21
the NLRB absent an appropriation. Liabilities for              generally a two- to three-year time period between
which an appropriation has not been enacted are                payment by DOL and reimbursement by the NLRB.
therefore classiﬁed as Liabilities Not Covered by              As a result, the NLRB recognizes a liability for the
Budgetary Resources and there is no certainty that             actual claims paid by DOL and to be reimbursed by
the appropriation will be enacted. Also, liabilities of        the NLRB.
the NLRB arising from other than contracts can be
abrogated by the government, acting in its sovereign           The second component is the estimated liability for
capacity.                                                      future beneﬁt payments as a result of past events.
                                                               This liability includes death, disability, medical, and
L. Liabilities Not Covered by Budgetary                        miscellaneous costs. The NLRB determines this
Resources                                                      component annually, as of September 30, using a
Liabilities represent the amount of monies or                  method that considers historical beneﬁt payment
other resources that are likely to be paid by the              patterns.
NLRB as the result of a transaction or event that
has already occurred. Liabilities not covered by               The NLRB uses the methodology of reviewing
budgetary resources result from the receipts of                the ages of the claimant on a case-by-case basis
goods or services in the current or prior periods, or          (because of the small number of claimants) to evaluate
the occurrence of eligible events in the current or            the estimated FECA liability. The determination was
prior periods for which appropriations, revenues, or           made to use the life expectancy of claimants of 80
other ﬁnancing sources of funds necessary to pay               and 84 years for male and female, respectively.
the liabilities have not been made available through
Congressional appropriations or current earnings of            See Notes 8 and 10 for additional information on the
the reporting entity.                                          FECA liability.

Intragovernmental                                              Accrued Annual Leave
The U.S. Department of Labor (DOL) paid Federal                Accrued annual leave represents the amount of
Employees Compensation Act (FECA) beneﬁts on                   annual leave earned by the NLRB employees but not
behalf of the NLRB which had not been billed or paid           yet taken.
by the NLRB as of September 30, 2011 and 2010,
respectively.                                                  See Notes 8 and 10 for additional information on
                                                               Accrued Annual Leave.
See Notes 8 and 10 for additional information on
intragovernmental.                                             M. Contingencies
                                                               The criteria for recognizing contingencies for
Federal Employees Workers’ Compensation                        claims are:
Program.                                                          1. a past event or exchange transaction has
The Federal Employees Workers’ Compensation                          occurred as of the date of the statements;
Program (FECA) provides income and medical cost                   2. a future outﬂow or other sacriﬁce of resources is
protection to covered federal civilian employees                     probable; and
injured on the job, to employees who have                         3. the future outﬂow or sacriﬁce of resources is
incurred work-related occupational diseases, and                     measurable (reasonably estimated).
to beneﬁciaries of employees whose deaths are
attributable to job-related injuries or occupational           The NLRB recognizes material contingent liabilities
diseases. The FECA program is administered by                  in the form of claims, legal action, administrative
DOL, which pays valid claims and subsequently seeks            proceedings and suits that have been brought to
reimbursement from the NLRB for these paid claims.             the attention of legal counsel, some of which will be
                                                               paid by the Treasury Judgment Fund. It is the opinion
The FECA liability consists of two components. The             of management and legal counsel that the ultimate
ﬁrst component is based on actual claims paid by               resolution of these proceedings, actions and claims,
DOL but not yet reimbursed by the NLRB. The NLRB               will not materially affect the ﬁnancial position or
reimburses DOL for the amount of the actual claims             results of operations.
as funds are appropriated for this purpose. There is


                                                          22
Contingencies are recorded when losses are                     coverage, the NLRB has recognized the entire service
probable, and the cost is measurable. When an                  cost of the post-retirement portion of basic life
estimate of contingent losses includes a range of              coverage as an imputed cost and imputed ﬁnancing
possible costs, the most likely cost is reported; where        source.
no cost is more likely than any other, the lowest
possible cost in the range is reported. This item will         Retirement Programs.
normally be paid from appropriated funds.                      The NLRB employees participate in one of two
                                                               retirement programs, either the Civil Service Retirement
See Note 16 for additional information on                      System (CSRS), a deﬁned beneﬁt plan, or the Federal
Contingencies.                                                 Employees Retirement System (FERS), a deﬁned
                                                               beneﬁt and contribution plan. On January 1, 1987,
N. Unexpended Appropriations                                   FERS went into effect pursuant to Public Law 99-335.
Unexpended appropriations represent the amount                 Most of the NLRB employees hired after December
of the NLRB’s unexpended appropriated spending                 31, 1983, are automatically covered by FERS and
authority as of the ﬁscal year-end that is unliquidated        Social Security. Employees hired prior to January 1,
or is unobligated and has not lapsed, been rescinded,          1984, could elect to either join FERS and Social
or withdrawn.                                                  Security or remain in CSRS. Employees covered by
                                                               CSRS are not subject to Social Security taxes, nor
O. Annual, Sick, and Other Leave                               are they entitled to accrue Social Security beneﬁts
                                                               for wages subject to CSRS. The NLRB contributes
Annual and Sick Leave Program.                                 a matching contribution equal to 7 percent of pay for
Annual leave is accrued as it is earned by employees           CSRS employees.
and is included in personnel compensation and
beneﬁt costs. Each year, the balance in the accrued            FERS consists of Social Security, a basic annuity
annual leave liability account is adjusted to reﬂect           plan, and the Thrift Savings Plan. The Agency and
current pay rates. Annual leave earned but not                 the employee contribute to Social Security and the
taken, within established limits, is funded from future        basic annuity plan at rates prescribed by law. In
ﬁnancing sources. Sick leave and other types of non-           addition, the Agency is required to contribute to the
vested leave are expensed as taken.                            Thrift Savings Plan a minimum of 1 percent per year
                                                               of the basic pay of employees covered by this system
See Note 10 for additional information on Annual               and to match voluntary employee contributions up to
Leave.                                                         3 percent of the employee’s basic pay, and one-half
                                                               of contributions between 3 percent and 5 percent of
P. Life Insurance and Retirement Plans                         basic pay. For FERS employees, the Agency also
                                                               contributes the employer’s share of Medicare. The
Federal Employees Group Life Insurance (FEGLI)                 maximum amount of base pay that an employee
Program.                                                       participating in FERS may contribute is $17,000 in
Most of NLRB employees are entitled to participate             calendar year (CY) 2012 to this plan. Employees
in the FEGLI Program. Participating employees                  belonging to CSRS may also contribute up to
can obtain “basic life” term life insurance, with the          $17,000 of their salary in CY 2012 and receive no
employee paying two-thirds of the cost and the NLRB            matching contribution from the NLRB. The maximum
paying one-third. Additional coverage is optional,             for catch-up contributions for CY 2012 is $5,500. For
to be paid fully by the employee. The basic life               CY 2012, the regular and catch-up contributions may
coverage may be continued into retirement if certain           not exceed $22,000. The sum of the employees’
requirements are met. The Ofﬁce of Personnel                   and the NLRB’s contributions are transferred to the
Management (OPM) administers this program and is               Federal Retirement Thrift Investment Board.
responsible for the reporting of liabilities. For each
ﬁscal year, OPM calculates the U.S. Government’s               OPM is responsible for reporting assets, accumulated
service cost for the post-retirement portion of                plan beneﬁts, and unfunded liabilities, if any,
the basic life coverage. Because the NLRB’s                    applicable to CSRS participants and FERS employees
contributions to the basic life coverage are fully             government-wide, including the NLRB employees.
allocated by OPM to the pre-retirement portion of              The NLRB has recognized an imputed cost and


                                                          23
imputed ﬁnancing source for the difference between           Q. Operating Leases
the estimated service cost and the contributions made        The NLRB has no capital lease liability or capital
by the NLRB and covered CSRS employees.                      leases. Operating leases consist of real and
The NLRB does not report on its ﬁnancial statements          personal property leases with the General Services
FERS and CSRS assets, accumulated plan                       Administration (GSA). Regarding NLRB’s building
beneﬁts, or unfunded liabilities, if any, applicable         lease, the GSA entered into a lease agreement for
to its employees. Reporting such amounts is the              the NLRB’s rental of building space. The NLRB pays
responsibility of OPM. The portion of the current and        GSA a standard level users charge for the annual
estimated future outlays for CSRS not paid by the            rental. The standard level users charge approximates
NLRB is, in accordance with Statement of Federal             the commercial rental rates for similar properties.
Financial Accounting Standards (SFFAS) No. 5,                The NLRB is not legally a party to any building lease
Accounting for Liabilities of the Federal Government,        agreements, so it does not record GSA-owned
included in the NLRB’s ﬁnancial statements as an             properties. The real property leases are for NLRB’s
imputed ﬁnancing source.                                     Headquarters and Regional Ofﬁces and the personal
                                                             property leases are for GSA cars.
Liabilities for future pension payments and other
future payments for retired employees who participate        See Note 12 for additional information on Operating
in the Federal Employees Health Beneﬁts and the              Leases.
FEGLI programs are reported by OPM rather than
the NLRB.                                                    R. Net Position
                                                             Net position is the residual difference between assets
SFFAS No. 5, Accounting for Liabilities of the               and liabilities and is composed of unexpended
Federal Government, requires employing agencies to           appropriations and cumulative results of operations.
recognize the cost of pensions and other retirement          Unexpended appropriations represent the
beneﬁts during their employees’ active years of              amount of unobligated and unexpended budget
service. OPM actuaries determine pension cost                authority. Unobligated balances are the amount of
factors by calculating the value of pension beneﬁts          appropriations or other authority remaining after
expected to be paid in the future, and provide these         deducting the cumulative obligations from the amount
factors to the agency for current period expense             available for obligation. The cumulative results of
reporting. Information was also provided by OPM              operations are the net result of the NLRB’s operations
regarding the full cost of health and life insurance         since inception.
beneﬁts.
                                                             S. Use of Management Estimates
In FY 2011, the NLRB, utilizing OPM provided                 The preparation of the accompanying ﬁnancial
cost factors, recognized $9,014,600 of pension               statements in accordance with accounting principles
expenses, $10,465,886 of post-retirement health              generally accepted in the United States of America
beneﬁts expenses, and $28,960 of post-retirement             requires management to make certain estimates and
life insurance expenses, beyond amounts actually             assumptions that directly affect the results of reported
paid. The NLRB recognized offsetting revenue of              assets, liabilities, revenues, and expenses. Actual
$19,509,446 as an imputed ﬁnancing source to                 results could differ from these estimates.
the extent that these intragovernmental expenses
will be paid by OPM. In comparison, in FY 2010,              T. Tax Status
the NLRB, recognized $9,546,185 of pension                   The NLRB, as an independent Board of the Executive
expenses, $9,901,409 of post-retirement health               Branch, a federal agency, is not subject to federal,
beneﬁts expenses, and $28,822 of post-retirement             state, or local income taxes, and, accordingly, no
life insurance expenses, beyond amounts actually             provision for income tax is recorded.
paid. The NLRB recognized offsetting revenue of
$19,476,416 as an imputed ﬁnancing source                    U. Comparative Data
from OPM.                                                    Comparative data for the prior year have been
                                                             presented for the principal ﬁnancial statements and
See Note 13 for additional information.                      their related notes.



                                                        24
V. Subsequent Events                                                 obligated. Unobligated funds, depending on budget
Subsequent events and transactions occurring after                   authority, are generally available for new obligations in
September 30, 2011 through the date of the auditor’s                 current operations. The unavailable balance includes
opinion have been evaluated for potential recognition                amounts appropriated in prior ﬁscal years, which are
or disclosure in the ﬁnancial statements. The date of                not available to fund new obligations. The obligated
the auditors’ opinion also represents the date that the              but not yet disbursed balance represents amounts
ﬁnancial statements were available to be issued.                     designated for payment of goods and services ordered
                                                                     but not yet received or goods and services received
                                                                     but for which payment has not yet been made.

NOTE 2.                                                              Obligated and unobligated balances reported for the
FUND BALANCE WITH TREASURY                                           status of Fund Balance with Treasury do not agree
                                                                     with obligated and unobligated balances reported on
Treasury performs cash management activities for                     the Statement of Budgetary Resources because the
all federal agencies. The net activity represents                    Fund Balance with Treasury includes items for which
Fund Balance with Treasury. The Fund Balance                         budgetary resources are not recorded, such as deposit
with Treasury represents the right of the NLRB to                    funds and miscellaneous receipts.
draw down funds from Treasury for expenses and
liabilities. Fund Balance with Treasury by fund type                 Status of Fund Balance with Treasury as of September
as of September 30, 2011 and September 30, 2010                      30, 2011 and September 30, 2010 consists of the
consists of the following:                                           following:

Fund Balance with Treasury by Fund Type:                             Fund Balance with Treasury by Availability:
                                                  Total Fund                   (in thousands)          FY 2011        FY 2010
 (in thousands)   General Funds   Escrow Funds   Balance with
                                                   Treasury           Unobligated Balance
   FY 2011
                    $ 26,401                       $ 26,401              Available                    $    619      $ 1,404
Entity Assests
  Non-Entity                                                             Unavailable                      3,676        3,072
                                           84             84
   Assets
    Total           $ 26,401            $ 84       $ 26,485           Obligated balance not
                                                                                                       22,106         32,061
                                                                      yet disbursed
   FY 2010
                    $ 36,537                       $ 36,537           Non-budgetary fund
Entity Assests                                                                                              84           139
                                                                      balance with Treasury
  Non-Entity
                                          139            139
   Assets                                                             Totals                         $ 26,485       $ 36,676
    Total           $ 36,537            $ 139      $ 36,676


The status of the fund balance may be classiﬁed as
unobligated available, unobligated unavailable, and




                                                                25
NOTE 3.                                                        Fiduciary Net Assets
FIDUCIARY ACTIVITIES                                           As of September 30, 2011 and 2010
                                                                       (in thousands)            FY 2011       FY 2010
EEffective for the period beginning after September
30, 2008, the cash received and the investments                 Fiduciary Assets
made for backpay funds will not be recognized on the
                                                                  Cash and cash
balance sheet of any federal entity. A note disclosure                                       $    3,131    $    2,779
                                                                  equivalents
is still required to provide information about its
                                                                  Investments                       225             –
ﬁduciary activities. See Note 1F, Fiduciary Activities,
for further explanation.                                        Fiduciary Liabilities

Backpay funds are the standard Board remedy                       Less: Liabilities                   –             –
whenever a violation of the NLRA has resulted in a loss
of employment or earnings. NLRB holds these funds               Total Fiduciary
                                                                                             $    3,356    $    2,779
in an escrow account with Treasury or invests the               net assets
funds that are authorized by the Regional Compliance
Ofﬁcers and other management ofﬁcials in market-
based Treasury securities issued by the Federal
Investment Branch of the Bureau of Public Debt.                NOTE 4. ADVANCES
There exists a signed MOU between the NLRB                     Intragovernmental
and the U.S. Treasury (Treasury) establishing the              IIntragovernmental Advances to the United States
policies and procedures that the NLRB and the                  Postal Service (USPS) for September 30, 2011 were
Treasury agree to follow for investing monies in, and          $12,513 and $23,336 for September 30, 2010. The
redeeming investments held by, the deposit fund                remainder of the balance for FY 2011 was with the
account in Treasury.                                           Department of Transportation for the transit subsidy.

Schedule of Fiduciary Activity
As of September 30, 2011 and 2010
        (in thousands)             FY 2011     FY 2010
                                                               NOTE 5.
                                                               ACCOUNTS RECEIVABLE, NET OF
 Fiduciary net assets,
 beginning of the year
                               $ 2,779)      $ 3,871)          ALLOWANCES FOR DOUBTFUL
    Fiduciary revenues             6,685)      12,367)
                                                               ACCOUNTS
                                                               The FY 2011 intragovernmental accounts
    Investment earnings                 0)          1)
                                                               receivable is zero and the FY 2010 amount was
    Disbursements to                                           also zero:
    and on the behalf of           (6,108)    (13,460)
    beneﬁciaries                                                       (in thousands)            FY 2011       FY 2010
 Increase (Decrease) in                                         With the public
                               $     577)    $ (1,092)
 ﬁduciary net assets
                                                                  Accounts receivable              $ 56          $ 97
 Fiduciary net assets,
                               $ 3,356)      $ 2,779)
 end of year                                                      Allowance doubtful
                                                                                                     (2)           (4)
                                                                  accounts

                                                                Accounts receivable-net            $ 54          $ 93




                                                          26
NOTE 6.                                                           NOTE 7.
GENERAL PROPERTY, PLANT                                           INTRAGOVERNMENTAL
AND EQUIPMENT, NET                                                ACCOUNTS PAYABLE
General property, plant and equipment consist of that             These accounts payables are with our federal trading
property which is used in operations and consumed                 partners of whom the largest amounts are with the
over time. The table below summarizes the cost and                General Services Administration (GSA).
accumulated depreciation for general property, plant
and equipment.

Depreciation expense for the years ended September                NOTE 8.
30, 2011 and September 30, 2010 was $3,783,870
and $3,298,900 (in dollars), respectively.
                                                                  LIABILITIES NOT COVERED BY
                                                                  BUDGETARY RESOURCES
                                 Accumulated                      Liabilities not covered by budgetary resources
  (in thousands)                                 Net Asset
                   Asset Cost    Depreciation/                    represent amounts owed in excess of available
      FY 2011                                     Value
                                 Amortization
                                                                  congressionally appropriated funds or other amounts.
 Equipment         $     2,438     $   2,104     $    334         The custodial liability represents amounts collected
 Internal Use                                                     from the public for court costs, freedom of information
                        19,664          9,682        9,982        requests and other miscellaneous amounts that must
 Software
 Internal Use                                                     be transferred to the Treasury.
 Software in             2,388              –        2,388
 Development                                                      The composition of liabilities not covered by
                                                                  budgetary resources as of September 30, 2011 and
 Totals            $ 24,490        $ 11,786      $ 12,704
                                                                  September 30, 2010, is as follows:

                                 Accumulated
  (in thousands)                                 Net Asset                (in thousands)            FY 2011        FY 2010
                   Asset Cost    Depreciation/
      FY 2010                                     Value
                                 Amortization
                                                                   Intragovernmental:
 Equipment          $    2,395     $    1,839    $    556
                                                                      FECA-Unfunded             $      583     $      642
 Internal Use
                        15,929          6,181        9,748
 Software                                                          Total Intragovernmental      $      583     $      642
 Internal Use
 Software in             2,045               -       2,045            Estimated Future –
                                                                                                     1,278          1,747
 Development                                                          FECA

 Totals            $ 20,369        $   8,020     $ 12,349             Accrued Annual Leave          15,146         15,065

                                                                   Total Liabilities not
                                                                   covered by budgetary             17,007         17,454
                                                                   resources
                                                                   Total Liabilities covered
                                                                                                    17,075         23,705
                                                                   by budgetary resources

                                                                   Total Liabilities            $ 34,082       $ 41,159




                                                             27
NOTE 9.                                                           NOTE 11.
NON-ENTITY ASSETS                                                 INTRAGOVERNMENTAL COSTS
Non-Entity assets, restricted by nature, consist of               AND EXCHANGE REVENUE
miscellaneous receipt accounts. These amounts                     For the intragovernmental costs, the buyer and seller
represent cash collected and accounts receivable                  are both federal entities. The earned revenue is the
(net of allowance for doubtful accounts). The                     reimbursable costs from other federal entities. The
miscellaneous receipts represent court costs and                  NLRB provided administrative law judges’ services to
freedom of information requests that must be                      other federal entities. There is no exchange revenue
transferred to the Treasury.                                      with the public.

The composition of non-entity assets as of September
30, 2011 and September 30, 2010, is as follows:                            (in thousands)            FY 2011       FY 2010

                                                                   Resolve Representation
                                                                   Cases
         (in thousands)            FY 2011        FY 2010
                                                                     Intragovernmental Costs    $     9,953    $     9,635
 Non-entity assets
                                                                     Costs with the Public           39,869         38,841
    Fund Balance
                               $        84    $       139          Total Net Cost -
    with Treasury
                                                                   Resolve Representation       $ 49,822       $ 48,476
 Entity assets                 $ 39,236       $ 49,003             Cases

 Total Assets                  $ 39,320       $ 49,142
                                                                   Resolve Unfair Labor
                                                                   Practices

                                                                     Intragovernmental Costs    $ 50,356       $ 48,753

NOTE 10.                                                             Costs with the Public          203,837        198,830
CUMULATIVE RESULTS OF                                              Total Net Cost -
OPERATIONS                                                         Resolve Unfair Labor         $ 254,193      $ 247,583
                                                                   Practices
         (in thousands)            FY 2011        FY 2010

                                                                   Other
 FECA paid by DOL              $      (269)   $      (226)

 FECA – Unfunded                      (583)          (642)           Intragovernmental Costs     $       18    $       59

 Estimated Future FECA              (1,278)        (1,747)           Less: Intragovernmental
                                                                                                         18            59
                                                                     Earned Revenue
 Accrued Annual Leave              (15,146)       (15,065)
                                                                   Total Net Cost - Other                 –              –
 General Property, Plant &
                                   12,704)        12,349)
 Equipment, Net
                                                                   Net Cost of Operations       $ 304,015      $ 296,059
 Other                                325)           320)

 Cumulative Results
                               $ (4,249)      $ (5,011)
 of Operations




                                                             28
NOTE 12.                                                      NOTE 13.
OPERATING LEASES                                              IMPUTED FINANCING
GSA Real Property. Most of NLRB’s facilities are              OPM pays pension and other future retirement
rented from the GSA, which charges rent that is               beneﬁts on behalf of federal agencies for federal
intended to approximate commercial rental rates. The          employees. OPM provides rates for recording the
terms of NLRB’s occupancy agreements (OA) with                estimated cost of pension and other future retirement
GSA will vary according to whether the underlying             beneﬁts paid by OPM on behalf of federal agencies.
assets are owned by GSA or another federal agency             The costs of these beneﬁts are reﬂected as imputed
or rented by GSA from the private sector. The NLRB            ﬁnancing in the consolidated ﬁnancial statements.
has OAs with GSA, which sets forth terms and                  Expenses of the NLRB paid or to be paid by other
conditions for the space the Agency will occupy for           federal agencies at September 30, 2011 and 2010
an extended period of time. Included within the OAs           consisted of:
are 120 to 180 day notiﬁcation requirements for the
Agency to release space. For purposes of disclosing
                                                                        (in thousands)           FY 2011    FY 2010
future operating lease payments in the table below,
federally-owned leases are included in years FY 2012           Ofﬁce of
through FY 2016.                                               Personnel Management:
                                                                 Pension expenses               $ 9,015    $ 9,546
Rental expenses for operating leases for the year
                                                                 Federal employees
ended September 30, 2011 were $26,741,352 for                                                    10,466      9,901
                                                                 health beneﬁts
Agency lease space and $2,697,132 for Agency
                                                                 Federal employees group life
building security. For FY 2010 the operating lease                                                   29         29
                                                                 insurance program
costs were $27,365,763 and the Agency building
security portion was $2,381,725.                               Total Imputed Financing          $19,509    $19,476


 Fiscal Year (in thousands)          GSA Real Property

 2012                                      $   27,410
 2013                                          28,095
                                                              NOTE 14.
 2014                                          28,798
                                                              APPROPRIATIONS RECEIVED
 2015                                          29,517         The NLRB received $ 283,400,000 and $ 283,400,000
                                                              in warrants for the ﬁscal years ended September 30,
 2016                                          30,255         2011 and 2010, respectively. The amount shown
 Total Future Lease Costs                  $ 144,075          on the Statement of Budgetary Resources under
                                                              caption “Permanently not available” for FY 2011
                                                              was the cancelled appropriation for FY 2006 for the
                                                              amount of $1,070,426 and the rescission amount
                                                              of $566,800 for ﬁscal year FY 2011. For FY 2010,
                                                              the total amount was $1,753,478 for the cancelled
                                                              appropriation for FY 2005.




                                                         29
NOTE 15.
STATEMENT OF BUDGETARY RESOURCES
The Statement of Budgetary Resources provides information about how budgetary resources were made
available as well as their status at the end of the period. It is the only ﬁnancial statement exclusively derived
from the entity’s budgetary general ledger in accordance with budgetary accounting rules that are incorporated
into GAAP for the Federal Government. The total Budgetary Resources of $288,448,081 as of September 30,
2011 and $287,002,747 as of September 30, 2010, includes new budget authority, unobligated balances at the
beginning of the year, spending authority from offsetting collections, recoveries of prior year obligations and
permanently not available. The NLRB’s unobligated balance available at September 30, 2011 was $619,446 and
at September 30, 2010 was $1,403,931.

Apportionment Categories of Obligations Incurred. NLRB’s obligations incurred
as of September 30, 2011 and September 30, 2010 by apportionment Category A and B is shown in the
following table. Category A apportionments distribute budgetary resources by ﬁscal quarters and Category B
apportionments typically distribute budgetary resources by activities, projects, objects or a combination of these
categories. Beginning in FY 2010, OMB agreed that it was not necessary for NLRB to separate its information
technology funding and therefore all obligations incurred were from one funding category.

 (in thousands)                           Apportioned                Not Subject to Apportionment   Total

 FY 2011                          Category A        Category B

 Obligations Incurred:
  Direct                             $ 284,135                   –                              –   $ 284,135

  Reimbursable                                 18                –                              –           18

 Total Obligations Incurred          $ 284,153                   –                              –   $ 284,153


 (in thousands)                           Apportioned                Not Subject to Apportionment   Total

 FY 2010                          Category A        Category B

 Obligations Incurred:
  Direct                             $ 282,468                   –                              –   $ 282,468

  Reimbursable                                 59                –                              –           59

 Total Obligations Incurred          $ 282,527                   –                              –   $ 282,527




NOTE 16.
CONTINGENCIES
The NLRB is involved in various lawsuits incidental to its operations. There are 2 cases involving NLRB employees,
that have a reasonable possibility of an unfavorable outcome and fees may be in excess of $200,000 but not
more than $300,000. While the ultimate outcome of these matters is not presently determinable, it is the opinion of
management that the resolution of outstanding claims will not have a materially adverse effect on the ﬁnancial position
of NLRB.




                                                           30
NOTE 17.
RECONCILIATION OF NET COST OF OPERATIONS TO BUDGET

For the Month Ended September 30, 2011 and 2010

 (in thousands)                                                           FY 2011           FY 2010
 Resources Used to Finance Activities
 Current Year Gross Obligations                                         $ 284,153)        $ 282,527)


 Budgetary Resources from Offsetting Collections:
   Spending Authority from Offsetting Collections
     Earned
       Collected                                                             (411)             (211)
   Recoveries of Prior Year Unpaid Obligations                             (1,799)             (973)


 Other Financing Resources:
   Imputed Financing Sources                                               19,509)           19,476)
   Other                                                                       (2)                 –
 Total Resources Used to Finance Activity                               $ 301,450)        $ 300,819)


 Resources Used to Finance Items Not Part of the Net Cost
 of Operations
 Budgetary Obligations and Resources not in the Net Cost
 of Operations:
   Change in Undelivered Orders                                             3,326)           (1,999)
   Current Year Capitalized Purchases                                      (4,141)           (5,468)


 Components of the Net Cost of Operations which do not Generate or Use Resources in the
 Reporting Period
 Revenues without Current Year Budgetary Effect:
   Other Financing Sources Not in the Budget                              (19,509)          (19,476)


 Costs without Current Year Budgetary Effect:
   Depreciation and Amortization                                            3,784)            3,299)
   Disposition of Assets                                                        2)                 -

   Future Funded Expenses                                                      22)              229)
   Imputed costs                                                           19,509)           19,476)
   Bad Debt Expense                                                             6)                8)

   Other Expenses Not Requiring Budgetary Resources                          (434)             (829)

 Net Cost of Operations                                                $ 304,015)         $ 296,059)




                                                    31
APPENDIX
UNITED STATES GOVERNMENT
National Labor Relations Board



Memorandum
                                                                                  *
Date:       December 8,2011
To:         David Berry, Inspector General


From:       Lafe E. Solomon, Acting General Counsel        /'S
            Mark G. Pearce, Chairman
Subject     Response to Draft Management Letter on Audit of the National Labor
            Relations Board's Fiscal Year 2010 Financial Statements (OIG-F-16-
            12-01a) (the "Draft Management Letter")

We are pleased to have this opportunity to respond to the Draft management
Letter which you provided to us on December 2, 2011.

As we have previously expressed, and as reflected in the Draft Management
Letter, we take seriously the findings involving internal control structure and
operational matters.

As to this year's recommendations, issue #1 relates to a task order for
information technology advisory services. We are in agreement with the findings
that the Agency inappropriately recorded an obligation at the end of FY 11 before
there was a binding agreement for services, which was signed on October 7,
2011, and that FY11 funds should not have been obligated for these services,
which did not commence until October 25,2011. In response, the Agency
modified the task order and de-obligated FY11 funds and obligated FY12 funds.
Additionally, as to the recommendation, as more fully discussed below, the
Agency has taken steps and continues to address implementation of FY1 0
significant deficiency recommendations in internal controls.

Issue #2 relates to receipt of telecommunication services. We are in agreement
with the findings that the Agency improperly received these services after the
period of performance expired because it failed to timely exercise options for the
next period of performance and retroactively modified the contract without
competition. We have implemented certain recommendations and are in the
process of implementing others, including: AMB's back-up calendar system,
purchase of procurement software, issuance of timely preliminary notifications,
verification of every solicitation, issuance of options prior to expiration of orders,



                                           1
file documentation of option year evaluations and ratification by Special Counsel
of procurement actions.

As to the FY10 recommendations, we partially addressed the finding of
significant deficiency in internal control by setting up a protocol for utilizing legal
counsel to review contracts, which also acts as a quality review system. Further,
a system is in place so that contracting officers receive appropriate training at
regular intervals. As to the recommendation to create a new Chief Financial
Officer position outside of the Department of Administration, we have
commenced review of fundamental re-structuring of the Agency as a whole,
which includes comprehensive review of the Agency's financial management
structure. With regard to other recommendations that have not been fully
completed or closed, we are in agreement with the recommendations and will
continue to ensure that timely revisions are made to the letters reporting Anti-
deficiency Act violations per OMB's request, in order to garner approval for final
signature and issuance.

The only other issue that has not been closed or fully completed involves an
FY06 recommendation to implement recommendations related to IT security
vulnerabilities. The Agency agrees with the recommendations and continues to
work diligently to implement those that have not been completed.

We appreciate both your efforts and the work of Carmichael Brasher Tuvell &
Company to bring these important issues to our attention. We remain committed
to making changes as necessary or appropriate to ensure a properly controlled
financial environment for the Agency.

cc:   The Board
      Director of Administration
      Chief Information Officer




                                           2
